<html>
<title> - CHINA'S TECHNOLOGICAL RISE: CHALLENGES TO U.S. INNOVATION AND SECURITY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
 CHINA'S TECHNOLOGICAL RISE: CHALLENGES TO U.S. INNOVATION AND SECURITY

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 26, 2017

                               __________

                           Serial No. 115-22

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 
                                 
                                 
                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-259PDF                  WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                   
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------         
                                 
                                 
                                 

                  Subcommittee on Asia and the Pacific

                     TED S. YOHO, Florida, Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             DINA TITUS, Nevada
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            THEODORE E. DEUTCH, Florida
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
ANN WAGNER, Missouri

                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Dean Cheng, senior research fellow, Asian Studies Center, The 
  Heritage Foundation............................................     8
Robert D. Atkinson, Ph.D., president, Information Technology and 
  Innovation Foundation..........................................    24
Robert E. Scott, Ph.D., senior economist, Director of Trade and 
  Manufacturing Policy Research, Economic Policy Institute.......    53

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ted S. Yoho, a Representative in Congress from the 
  State of Florida, and chairman, Subcommittee on Asia and the 
  Pacific: Prepared statement....................................     3
Mr. Dean Cheng: Prepared statement...............................    10
Robert D. Atkinson, Ph.D.: Prepared statement....................    26
Robert E. Scott, Ph.D.: Prepared statement.......................    55

                                APPENDIX

Hearing notice...................................................    90
Hearing minutes..................................................    91
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    92
Written responses from the witnesses to questions submitted for 
  the record by the Honorable Ted S. Yoho, a Representative in 
  Congress from the State of Florida, and chairman, Subcommittee 
  on Asia and the Pacific........................................    94


 CHINA'S TECHNOLOGICAL RISE: CHALLENGES TO U.S. INNOVATION AND SECURITY

                              ----------                              


                       WEDNESDAY, APRIL 26, 2017

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:32 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ted Yoho 
(chairman of the subcommittee) presiding.
    Mr. Yoho. All right. The subcommittee will come to order. 
Members present will be permitted to submit written statements 
to be included in the official hearing record. Without 
objection, the hearing record will remain open for 5 calendar 
days to allow statements, questions, and extraneous materials 
for record, subject to length, limitations, and the rules.
    China's growth as a technological powerhouse is one of a 
number of momentous changes taking place in the U.S.-China 
relationship. Some changes are driven by pressing threats, like 
North Korea's belligerence and the resulting close 
communications between President Trump and President Xi. Others 
like the President's executive order on steel imports are 
simply the result of our change in administration. Still more, 
like the impending launch of China's first indigenous produced 
aircraft carrier, are symbolic of China's growing power.
    These changes will demand policy adjustments, which is no 
easy task. Our bilateral relationship is the most consequential 
in the world. We can't set policy based solely on short-term 
commitments by China to reign in its dangerous North Korean 
trading partner or predatory trade practices. During this time 
of recalculation, the United States must account for the 
complete picture, taking into account broader long-term trends. 
China's policies toward high technology and its conduct in the 
high-technology sectors make up concerning pieces of this 
picture.
    China is relentlessly pursuing long-term degradation of 
U.S. strategic and economic interests through its high-tech 
policies. As China has risen, it has not integrated itself into 
the existing rules and structures for global leadership and 
trade as many have hoped. In high-tech sectors and more 
broadly, China has undertaken mercantilist industrial policies 
to advance its business interests at the expense of others and 
pursued asymmetric strategic capabilities that erode 
traditional understandings of military operations.
    China has undertaken a comprehensive industrial strategy to 
advance domestic high-tech industry through nonmarket means. 
Massive state subsidies and zero sum tactics degrade foreign 
competitiveness, and the systematic and widespread theft of 
intellectual property and forced transfers of technology 
destroys innovation and research investments. Today is World 
Intellectual Property Day, a fitting time for a reminder that 
protecting U.S. innovation must be an inviolable part of our 
national strategy toward China.
    These predatory industrial policies are in full display in 
China's ongoing attempts to dominate critical high-technology 
supply chains such as semiconductor production. The economic 
stakes are high. The United States is the world's leader in 
semiconductors. The industry employs more Americans than the 
steel industry, and semiconductors are our fourth most valuable 
export.
    But the security concerns are also significant. 
Semiconductors are the enabling technology of all electronics, 
and a comprised supply chain could contaminate sensitive 
military technology with secret back doors.
    China's high-tech policy is also challenging U.S. 
leadership in space. China is expanding its scientific 
exploration and space-based military capabilities at a rate 
that may credibly make outer space into a bipolar domain. This 
is a significant strategic threat as top U.S. military 
strategists predict that space-based capabilities will be the 
key to all future conflicts. Under the status quo, China will 
own the Earth's only manned space station and will beat the 
United States back to the Moon in the coming years.
    Future conflicts also highlight the threat posed by China's 
cyber capabilities. It is believed that the U.S. critical 
infrastructure has already penetrated numerous times, putting 
it at risk if a conflict were to occur. The ability to threaten 
U.S. energy grids and utilities network mean that the homeland 
could suffer serious costs from conflicts that would otherwise 
be limited and regional.
    China's cloud has grown along with its economic power, but 
China has not matched its growing influence with behavior 
expected of a global leader. This is particularly concerning in 
high-tech fields which will be critical to future economic 
gains.
    China is the world's second largest economy, but in 
pursuing dominance in high-tech sectors, it regularly violates 
or disregards the practices that have contributed to global 
economic growth. The emerging strategic commons of cyberspace 
and outer space are critical for global security. But China's 
action in these domains and its track record in the South China 
Sea raises serious doubts that China can be trusted to act 
responsibly and follow international law in shared spaces.
    I thank the panel for joining us today to discuss the 
challenges to U.S. innovation and security presented by China's 
high-tech policies in these critical areas. I look forward to 
hearing your recommendations for U.S. policies.
    And without objection, the witnesses' written statements 
will be entered into the hearing record. I now am going to turn 
to our ranking member for any remarks he may have.
    [The prepared statement of Mr. Yoho follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
                              ----------                              

    Mr. Sherman. And believe it or not, I have a few.
    Friends trade with each other on a balanced and fair basis. 
I am glad to have another hearing focused on their trade 
relationship with China. Recently, we saw a phenomenal event at 
Mar-a-Lago, the total capitulation to President Xi on all 
economic issues. So much else was going on in the world that 
the press didn't bother to cover it, but the fact is that a 
President that promised to be tough on China trade let 
President Xi go home thinking we would do absolutely nothing.
    Now supposedly, this is in return for a promise that 
China's going to help us with regard to North Korea. First, 
what kind of friend needs to be bought off with American jobs 
in order to stop subsidizing and supporting a lunatic that 
wants to develop the capacity to incinerate American cities. 
That is not something that we should have to pay for in 
American jobs.
    But second, China isn't doing it. Refinement of uranium and 
creation of plutonium continues in North Korea. The missile 
tests take place every time there is the anniversary of one of 
the leader's forbearers. And China delays the purchase of one 
or two trains of coal. Of course, the country with perhaps the 
most polluted urban areas in the world when it comes to air 
might want to cut back on its coal imports anyway. This is an 
utter capitulation to China in return for basically nothing and 
certainly nothing that has made us safer.
    We are the global leader in technology and science. The 
recent budgetary proposals to cut back on scientific 
development aren't going to help that. China's Made in China 
2025 proposal is designed to take--to make the trade balance 
even more unbalanced by replacing those products that they 
import from us and exporting more to us. China's trade 
practices include, first and foremost, a rejection of the 
concept that there should be fair and balanced trade with the 
United States, and include historic currency manipulation, 
propping up state-owned enterprises, intellectual property, 
theft, forced technology transfer, dumping, barriers to 
importation, nontransparent trade laws and regulations, 
subsidies leading to overcapacity, et cetera, et cetera.
    Now, the--we had a $310 billion trade deficit with China. 
This is the largest persistent trade deficit in the history of 
the world. In 2015, it was $336 billion. We are told by the 
Washington/Walmart/Wall Street axis a variety of things. First, 
we are told it doesn't matter. Well, it does, because every 
billion dollar trade deficit translates into losing 10,000 
jobs. We are told our unemployment rate is low. Our 
unemployment rate is not low enough to create the labor 
shortage necessary so that Wall Street has to raise wages. 
Until we see a massive increase in wages, we need every good 
job we can get, and every billion dollars of unbalanced trade 
is 10,000 jobs.
    We are told that the trade deficit stems from a fair 
system, and that of course is absolutely false. And we now see 
that with advanced technological products, where China should 
be importing more from the United States, we ran a $114 billion 
trade deficit with China last year, and it's only going to get 
worse.
    Now, as to its practices, China's coproduction agreements--
I mean, if China were to say, there is a 20-percent tariff on 
planes sent from the United States to China, oh, we would say, 
oh, that is a tariff. But if instead they say you can't sell a 
single plane until you build a fuselage factory here in China, 
we say, oh, we don't know what to make of that, so we will 
ignore it. Coproduction agreements are the theft of jobs and 
with regard to China, the theft of intellectual property. We 
allow them because the Wall Street/Walmart/Washington axis does 
not support the American working family.
    We can go on and look at the General Motors situation where 
we can't sell cars there unless we move the factories there. I 
have talked about how Boeing has set to open up its first 
factory line in China, not because of fair economics, but 
because we are not able to sell planes in China unless they 
extort that from us. So one would have to wonder on what basis 
we claim that China has given us most-favored nation status.
    So what is Trump going to do about it? He won the Midwest 
from Pittsburgh to Milwaukee saying he was going to solve this 
problem. Current law allows him to impose, depending, 10 
percent, another 15 percent, another 15 percent tariffs on 
Chinese imports or to threaten to do so. He has done neither. 
The trade deficit is running today as it has run in the past. 
There was a blip because of Chinese New Years, but that is a 
blip we would expect every time there is a Lunar New Year.
    So he's got the power, and the most obvious thing he can do 
is designate China a currency manipulator. Now, you can say, 
well, maybe they are not manipulating the currency today. How 
many factories have they built? What competitive advantage have 
they stolen from the currency manipulation in the past? Since 
when are you not a currency? That is like saying, I didn't 
murder anybody today; therefore, I am not a murderer. They 
benefit from their past currency manipulation.
    So the President told us he would do something. He 
campaigned--when it came to China, he campaigned with a big 
mouth and he governs with small hands.
    I yield back.
    Mr. Yoho. And you worked that in there.
    We are going to extend a minute to each of the members that 
want to speak, and we will start with Mr. Dana Rohrabacher out 
of California.
    Mr. Rohrabacher. One of the things I am proudest of is that 
I, early on in my career here in Congress, led the floor fight 
against most-favored nation status for China, and all those 
folks on the other side of the debate were telling us how 
making sure that China prospered by having the right kind of 
economic relationship would bring liberalism in a more peaceful 
world. Now we now what baloney that is and what baloney we have 
been fed about China all these years.
    China is an emerging threat to the United States and an 
emerging threat to people who want to live at peace in the 
world. They have more land claims and territorial claims than 
most any other country in the world against various other 
countries, which we ignore. And we now, of course, hear that 
our President now has not been tough enough with this visit of 
this Chinese leader. Let me just wait and see. I said, let's 
wait and see. Let's see if indeed these Chinese who have not 
done anything but steal and rob from us, undermining our 
national security all these years, let's see if they help us at 
least with this problem in North Korea, which is a horrendous 
problem. If they do, our President has accomplished a great 
accomplishment. So let's not just turn this into a totally 
political brouhaha.
    Mr. Yoho. Thank you.
    Next, we will go to Mr. Chabot from Ohio.
    Mr. Chabot. I thank the gentleman.
    Having been a past chair of this committee, we have had 
hearings like this in the past, and China just--and Mr. Sherman 
is nodding--we have been through this before a number of times. 
And now as chair of the Small Business Committee, we have seen 
things that are affecting small businesses all over the country 
relative to what China's shenanigans are.
    U.S. security contractors discovered preinstalled software 
in Android phones belonging to American cities. This software 
enabled them to effectively keep tabs not only on the owners' 
whereabouts but on their private conversations with friends and 
family members and business partners, et cetera. This 
unauthorized and private information was then silently 
transmitted back to a server located in China.
    I have only got a minute, so I can't go on nearly long 
enough on this. But China has been one of the bad actors on the 
world globe for far too long, and I am very, very looking 
forward to hearing--we had a couple of witnesses before, when I 
was chair, and we have got some good witnesses here. So I 
commend the chairman for bringing this panel together, and I 
yield back.
    Mr. Yoho. Thank you, sir.
    And I just want to remind members that votes are going to 
be called between 3 o'clock to 3:10, and we are going to have 
to take a break. If you guys would hold on, if you can, it is 
going to take us probably 20 to 30 minutes to do that and we 
can finish up. And if you can't, we understand.
    But with us today--and I am very thankful for this. I look 
to you guys as the experts to help us guide--to guide us to get 
policies that we can pass on to the State Department and this 
new administration to help direct policies on how we deal with 
an emerging China.
    And with us today we have Mr. Dean Cheng, senior research 
fellow at The Heritage Foundation, Asian Studies Center; Dr. 
Robert Atkinson, president of the Information Technology and 
Innovation Foundation; and Dr. Robert Scott, senior economist 
and director of trade and manufacturing policy research at the 
Economic Policy Institute.
    We thank the panel for joining us today. I really do look 
forward to hearing your testimonies because this is what--you 
know, as Chairman Chabot brought up, we have been here before. 
What I don't want to do is come back a year from now or 2 years 
from now and say, man, we talked about this 2 years ago. What 
did we do in the interim? I want to have some action items that 
we can go back and we can create legislation to have action 
statements.
    Mr. Cheng, we are going to start with you. Press your red 
button to speak, and your timer. I am going to try to hold you 
guys to 5 minutes. I know that is sometimes tough, but I do 
appreciate it. And so go ahead. Thank you.

  STATEMENT OF MR. DEAN CHENG, SENIOR RESEARCH FELLOW, ASIAN 
            STUDIES CENTER, THE HERITAGE FOUNDATION

    Mr. Cheng. Chairman Yoho, Ranking Member Sherman, members 
of the House Foreign Affairs Committee, my name is Dean Cheng, 
I am the senior research fellow for Chinese political and 
security affairs at The Heritage Foundation. Please let me note 
I am not an economist. I am honored to be here and testifying 
before you but must note that my testimony reflects only my 
opinions and do not represent those of The Heritage Foundation.
    Before addressing the specifics of the issues that are laid 
out before us, I think it is important to recognize a couple of 
framework aspects, one of which is that innovation in 
particular can often come in very different forms. We as 
Americans tend to focus on technological innovation, but there 
are other examples of innovation, including fundamental 
scientific breakthroughs, what are sometimes termed paradigm 
shifts; innovations in terms of organization; and innovation in 
terms of processes, especially production or delivery methods.
    This is important because it is also important to recognize 
that others have successfully innovated in the past, often 
building on top of our own breakthroughs. The best example 
here, of course, is Japan, who in the 1980s built on the 
American invention of VCRs by making significant innovations in 
the production processes so that they could manufacture VCRs 
more cheaply, and yet they would be much more reliable than 
those that were produced by the United States at the time.
    In this regards then, when we look at China in innovation, 
it is important to also recognize how much China is focused on 
information-related technologies. And this is in part because 
the Chinese leadership believes that we are now living in an 
information age. So the very nature of international power, the 
currency of international power has shifted from traditional 
industry, per se, the shareability to manufacture tanks or 
steel or generate power, toward the ability to gather 
information, analyze information, and exploit information.
    As a result, China believes that in a sense the global 
balance of power has been reset back to zero where everyone is 
starting from the same starting point and China can therefore 
catch up much more easily. At the same time, China has also 
recognized that this has implications for regime stability as 
well as national security.
    We see, for example, significant Chinese efforts at 
innovation in their space effort. Too often we are working off 
the very wrong perception the China space program is entirely 
rooted upon copying from others when, in fact, to begin with, 
China's space program really took off when it was isolated from 
all other players. It entered the space age in the 1960s when 
it had no relations with either the United States or the Soviet 
Union. Often, Chinese equipment, while externally similar, is 
in fact significantly different from the ostensible source. The 
Shenzhou manned spacecraft is bigger. Its power-generating 
capacity is significantly larger than the Soyuz to which it 
bears a superficial resemblance.
    And finally, we are seeing genuine Chinese innovation in 
space. They deployed the first quantum communication satellite, 
which is--probably enjoys unbreakable encryption. They have 
developed a direct descent antisatellite capability to threaten 
targets in the geosynchronous belt. No other country has 
developed that. They are deploying a communications satellite 
at Lagrange point 2 to support a mission to the far side of the 
Moon, which no other nation has done. And finally, their BeiDou 
Navigation Satellite has a backup communications capability. 
Again, a setup that no other country has done.
    We see the same actual innovation in terms of Chinese 
cyber. The great firewall of China is a form of innovation. It 
is something that obviously strikes at values like the free 
flow of information, but that is a values issue, not an 
innovation issue. PRC telecoms have demonstrated the ability to 
selectively shut down things like text messaging while--without 
shutting down mobile phone service. And the great canon allows 
China to selectively target different entities for DDOS, for 
distributed denial of service attacks, which no other country, 
frankly, has developed.
    China has also developed an organization involving hundreds 
of thousands of human censors to censor the internet within 
China. Again, not something that we would support, but it is a 
form of innovation.
    None of this is to argue that China does not engage in 
cyber espionage or that China does not engage in unfair trade 
practices. Rather, it is to suggest that it is important to 
recognize that they do those things, but that they also promote 
innovation within China. They are trying to catch up, including 
in terms of innovation in key areas such as space and cyber. 
One of the key areas that they are likely to follow up on is to 
push for access through venture capital and other entities in 
the United States that they will have had a hand in setting up.
    And I would strongly recommend to this committee thinking 
about a follow-on to the CFIUS process where we are not just 
simply limiting Chinese entry into our markets but what happens 
after they have already entered.
    Thank you very much.
    [The prepared statement of Mr. Cheng follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                              ----------                              

    Mr. Yoho. Thank you.
    Dr. Atkinson.
    And they have just called votes, so we have got about 12 
minutes before we have to leave, then we will come back.

STATEMENT OF ROBERT D. ATKINSON, PH.D., PRESIDENT, INFORMATION 
              TECHNOLOGY AND INNOVATION FOUNDATION

    Mr. Atkinson. Thank you Chairman Yoho, Ranking Member 
Sherman, and other members of the committee. It is a pleasure 
to be here.
    ITIF is a think tank here in Washington. We have focused on 
what we term Chinese innovation mercantilism for a number of 
years.
    I want to postulate that the challenge today is a little 
different than it has been for the last 15 years with regard to 
China. That challenge was largely about U.S. low- and mid-tech 
manufacturing on a commodity based goods, where they were able 
to hollow out U.S. manufacturing in a serious way, largely by 
currency, subsidies, other kinds of measures. And that does 
matter. I agree that the trade deficit does matter to our 
Nation's prosperity. But I would argue that the emerging 
challenge is somewhat different.
    The emerging challenge now is about the Chinese Government 
enacting a suite of policies to go after the U.S. leadership in 
our core advanced technologies. It is one thing to lose 
textiles, I feel bad for the textile workers and the textile 
communities, but the U.S. real core advantages in advanced 
industries, that is what the Chinese are going after. I think 
we should look at a world or at least consider a world where in 
15 years, U.S. technology jobs in industries like aerospace, 
chemicals, computers, motor vehicles, medical equipment, 
pharmaceuticals, software, semiconductors, are dramatically 
reduced from where they are today. I think that is the risk we 
have to look at.
    More importantly--or as importantly, once those are gone, 
the dollar could fall dramatically and we are not going to get 
them back. We can get a lot of commodity things back if the 
dollar falls enough, because it is not that hard to recreate 
them. Once you've lost an industry like semiconductors or 
aerospace, it is really, really hard to get it back.
    So the Chinese have a goal of mastering their own 
technologies, a very different goal than most countries which 
is around comparative advantage, and they are doing that in a 
wide variety of areas. Other members have mentioned some of the 
tactics. I have that in my testimony so I won't go into that.
    But let me talk briefly about the case of semiconductors. 
This is a leading U.S. industry. We enjoy a $420 billion trade 
surplus, more--or equally importantly, we specialize in the 
higher value added segments in industry, R&D design and 
advanced manufacturing. So that is a real core strength for us.
    The Chinese have a strategy now to eliminate semiconductor 
imports completely within 20 years and to grow their own 
national champions to come out and take market share away from 
U.S. companies. A key tactic in their 2014 strategy for 
national guidelines for development of promotion of integrated 
circuit industry is a $160 billion fund to basically subsidize 
their companies. For example, there is a company called XMC, 
which is a contract chip producer. It is owned by a Chinese 
provincial government. It has received fairly significant 
subsidies to build a massive 1 square kilometer plant to 
produce up to 300,000 RAM flash memory units per month. If they 
are able to do that, and they are already a third of the way 
through building that plant, they will flood the memory market, 
and they will significantly disrupt that, probably leading to 
some bankruptcies in foreign countries.
    So what do we need to do? I think first of all we need to 
do two things when it comes to trade. One is we need to limit 
the Chinese access to our crown jewels. The main way they try 
to get that is either through forced tech transfer or through 
acquisitions, and I will talk in a moment about CFIUS. And then 
secondly, to attempt to roll back. We are not going to 
eliminate, but we can and should roll back some of their 
innovation mercantilist practices.
    I think what that means, when it comes to trade policy for 
Congress and the administration, is that, I know it sounds 
simple, but to focus on China. That really is the biggest 
challenge in our trade policy. It is not other countries who 
are our allies where we might experience minor irritants over 
certain kinds of products; it is really China. And to the 
extent we get engaged in other kinds of trade sites, we reduce 
the ability of our allies to join with us to push back against 
China. A good example of that, both the Japanese and the Korean 
Governments are quite concerned with the same kinds of policies 
that I have talked about here, and they should be natural 
allies with us to do that.
    Secondly, with regard to our China policy, I would argue we 
really need to focus on advanced industries. That is the 
biggest threat. That is where the puck is going towards. While 
other industries are, you know, important certainly to their 
users, this is an important area.
    Third, we need to develop stronger organizational 
capabilities in the Federal Government. We still haven't 
translated some of the Chinese documents for their industry 
strategy. We don't even know what they say because we don't 
have enough Chinese translators or money to just translate 
these simple documents. I would argue also that within the 
National Intelligence Council, we need a dedicated unit that we 
have termed the national industrial intelligence unit; somebody 
in the Federal Government who tracks exactly what China is 
doing, what are the technologies they are going after.
    Two last quick things. I know my time is up. One, given 
that you have oversight of the State Department, I think the 
State Department is a challenge here in these negotiations. 
State is oftentimes the placater. The USTR is the one that 
tries to push hard. State is often the one that is trying to 
get USTR to back off or back down. I think that is a serious 
problem.
    And lastly, CFIUS. We need to update CFIUS. The Chinese 
Government essentially does not let U.S. firms go in and buy 
Chinese firms. I would argue that we need a similar level of 
reciprocity, particularly around advanced technology firms.
    Thank you.
    [The prepared statement of Mr. Atkinson follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Yoho. Thank you, sir.
    And, Dr. Scott, if you would, please.

STATEMENT OF ROBERT E. SCOTT, PH.D., SENIOR ECONOMIST, DIRECTOR 
  OF TRADE AND MANUFACTURING POLICY RESEARCH, ECONOMIC POLICY 
                           INSTITUTE

    Mr. Scott. Thank you very much, Chairman Yoho, Ranking 
Member Sherman, and all the members of the committee. I am 
honored to testify here today. My name is Robert Scott, I am a 
senior economist with the Economic Policy Institute. We are a 
think tank focused on the impact of the economy and government 
policies and low- and middle-income workers in America.
    In my testimony today I am going to focus on the impact of 
the trade deficit with China and how it has affected the U.S. 
economy and on the issues raised in the hearing today. In 
particular, China's rapidly growing technical capabilities, 
fueled by hundreds of billions of dollars of public investment 
and channeled through its increasingly sophisticated industrial 
planning systems represents a tremendous challenge to U.S. 
high-tech industries and to the security of the United States.
    I want to call your attention to the following points: 
Starting with the economics, the rapid growth of U.S. trade 
deficits with China after that country's entry into the WTO 
eliminated 3.4 million U.S. jobs between 2001 and 2015. Nearly 
three-quarters of those--2.6 million--were in manufacturing.
    The largest growth in the trade deficits by industry was in 
computers, and electronic parts, where we lost 1.2 million jobs 
in that same period. As already noted, China has a massive 
trade surplus in advanced technology products, which in 2015, 
reached $120 billion with the United States.
    Now, these job losses that I have been talking about are 
just the tip of the iceberg when it comes to the negative 
impact of trade with China on the United States.
    Wage losses have hurt--much more. They have hurt many, many 
more people; in fact, all workers who don't have a college 
degree. There are roughly 100 million such workers in the 
United States. Growing competition with imports from China and 
other low wage countries has reduced the wages of all of these 
noncollege graduates by, in total, about $180 billion a year in 
2011 alone, or about $1,800 per worker, the median.
    Now, the reasons for China's large and growing surpluses 
with the U.S. go far beyond the free market, as you know and as 
you have expressed here today. China subsidizes and dumps mass 
quantities of exports. It blocks imports, pirates software and 
technology, invests in massive amounts of excess production 
capacity in a range of basic industries, often through state-
owned enterprises, which leads to massive dumping. China has 
engaged in extensive and sustained currency manipulation over 
the past two decades, which has resulted in persistent currency 
misalignments. I emphasize that is a different concept, 
misalignment versus manipulation. We need to distinguish the 
two.
    I want to make two points here not raised in my written 
statement. First, the rapid growth of U.S. computer imports 
represents a threat to national security because it is 
connected to the outsourcing of U.S. defense products, as has 
been explained in a book and articles by Brigadier General John 
Adams. This outsourcing has eroded our capability for producing 
products for the defense base and has reduced our ability to 
engage in cost innovation, knowledge generation, and domestic 
employment.
    Secondly, China's support for its domestic champion firms 
and industries does threaten the U.S. industrial base, as we 
have already heard here today. China engages in forced 
technology transfer with foreign terms and theft of 
intellectual property. It also blocks or discourages imports, 
and it has of course become much less welcoming to foreign 
investors in recent years.
    Now, turning to policy solutions. China's actions do call 
for direct policy responses. We certainly need to begin by 
aggressively enforcing all fair trade laws and treaty 
obligations. We should self-initiate dumping and countervailing 
duty cases. We should make elimination of China's excess 
production capacity a priority in bilateral negotiations.
    In addition, the United States should continue to treat 
China as a nonmarket economy in fair trade enforcement, because 
if we stop doing that, it will allow China to flood this 
country with dumped imports. China should not be rewarded for 
market distortions with a bilateral investment treaty.
    And lastly, the United States must maintain currency 
vigilance. We must consider negotiating a new Plaza Accord to 
rebalance global trade and currencies. I would like to talk 
about how we might do that perhaps when we have time after the 
break.
    [The prepared statement of Mr. Scott follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                              ----------                              

    Mr. Yoho. And I really appreciate that.
    And I want to thank our witnesses for the testimony.
    We stand in recess, and we will reconvene directly after 
votes.
    I am going to offer to you if you want to go in the back 
here, I think there is some coffee back there, for you guys, 
anyway. The rest of you can't have it.
    But we will be back as quick as we can, because I want to 
follow up on this. I mean, it is such an important topic. I 
look forward to gaining the information to where we can come up 
with policies that stick.
    Thank you.
    [Recess.]
    Mr. Yoho. We are going to call the meeting back to order. 
We have got people coming in. And respecting your time, we will 
start moving on. Being the chairman, it is nice because I get 
to ask opening questions.
    Dr. Scott, you brought up something very important talking 
about the way China subsidizes and kind of just rolls in and 
takes over different industries through subsidies. If we look 
at the past activity of people of nations, we can predict 
future actions. I sit on the Ag Committee also, and if we look 
at what they have done with, you know, cotton, they heavily 
subsidized that at $1.63 a pound, roughly. Cotton prices over 
here have plummeted, and they have kind of cornered the market 
on cotton. And we have seen that with other commodities, other 
industries. I wouldn't--I would think that this would be no 
different.
    So we know what the past is, we can kind of predict the 
future on past activities. So with that, my question to you is, 
the building blocks of the semiconductor industry, you made the 
reference to steel with automotives and the supply chain, but 
if we know they are doing that with semiconductors, my question 
to you, and all three of you really, is if we look at what 
happened in the past here in the last 2 years of the Obama 
administration, they approved at least 13 semiconductor 
acquisitions in the U.S. Has there been any studies to see what 
effect these acquisitions had on U.S. competitiveness, 
semiconductor supply, that supply chain? What industry sector 
were they in: Banking, military, other? And have these 
purchases by the Chinese Government-backed businesses 
jeopardized or weaken national security in any way?
    We will start with you, Dr. Scott, if you would be so kind.
    Mr. Scott. Thank you very much, Mr. Chairman. I have not 
studied these 13 specific acquisitions. I have studied general 
patterns of the impacts of foreign acquisitions of U.S. 
companies by foreign multinationals. I can say that it is 
almost universally true, that when foreign companies come into 
the United States and take over domestic firms, they are 
looking for two things. They are looking to have access to a 
distribution center for their own products that they are 
producing in their home markets, and they want to have access 
to technology.
    In my prepared testimony, I produced a chart which showed 
the trade trends of foreign--of U.S. subsidiaries of foreign 
multinationals, and that includes large numbers of firms that 
have been taken over by foreign multinationals. It showed those 
companies have a growing trade deficit with the United States. 
They are responsible for a deficit that reached about $300 
billion in 2014, up from about 200 billion in 2000--I am 
sorry--in 1997. So--I am sorry. The actual balance figures 
were--I am sorry, I was wrong. The deficit increased from $124 
billion in 1997 to over $300 billion in 2014. By 2014, 
responsible for about 40 percent of U.S. trade deficits.
    So companies buy up U.S. firms, they hollow them out, they 
export the technology. I think that is especially true in 
semiconductors, and I know that Dr. Atkinson has looked at this 
industry in some detail.
    Mr. Yoho. Right. And we have seen that even with the Apple 
industry. They came over and learned the technology, take it 
over there, and they take over the market. And so I think this 
is something that we really need to pay stronger attention to.
    And President Xi has prioritized advancing China's space 
program to strengthen national security. I know in some of the 
testimonies, we know that future conflicts or future 
disagreements between nations, we have to look at shutting down 
power grids. But why is this considered strengthening national 
security? And they seem to be really pushing this stronger than 
what I would think any other nation would--and I think it was 
you, Dr. Atkinson, talking about going to the backside of the 
Moon, or was that you Dr. Scott?
    Dean, it was you? So why is this so important for them to 
continue down this path? When you look at the previous nations 
that have been in space, we have had multinational 
collaboration in the space station for the future of 
development of science, it seems like. This seems more 
nationalistic, and it seems like a scary way. Do you want to 
comment on that?
    Mr. Cheng. China views space as something that they term 
very dense in high technology. When you look at space, it 
touches on such advanced areas as computing, 
telecommunications, advanced materials, high-carbon composites, 
high-tensile metals. It also involves systems engineering and 
systems integration, two skill sets that the Chinese themselves 
recognize that they are weak in.
    And they see it as an inspiration, that this will inspire 
the next generation of Chinese young people to go and become 
aerospace engineers and systems engineers and systems 
integrators. So developing space, they believe, is going to 
serve very much like a locomotive to pull the rest of China's 
economy forward, to train a new generation of Chinese workers 
in precision manufacturing and the like.
    But it also is important because it touches on information. 
Information is acquired from space; militarily, that is fairly 
obvious, but also even just day to day. More and more industry 
relies on things like precision navigation and timing 
functions, which for us is provided by GPS, and China wants it 
displaced through BeiDou.
    So all of these are skills--all of these are technologies 
and areas that, as China develops its space capabilities, it 
can then turn around and exploit better in terms of both 
exporting its own satellites, which it already does in 
competition with the United States, but also, for them, 
hopefully, they would like to then compete in advanced 
materials and computers and all of these areas.
    In terms of supply chains, it also provides a guarantee for 
all of the domestic industries that China is subsidizing and 
fostering that there will be this very large market of Chinese 
satellites, Chinese aerospace companies that are going to be 
basically saying, absolutely, I want to buy it, and, of course, 
I am going to prefer Chinese products.
    Mr. Yoho. Right.
    And I think I have heard both--maybe all three of you talk 
about how China--and we know this. I was at a briefing one 
time, and the NSA was there, and this is common knowledge 
there. He said, if you are on the internet, just assume China 
is in your computer. If we know that and we know they have put 
in backdoors in some of the phones and those systems--we were 
talking earlier about CFIUS, and maybe it is time for a second 
play on that, to make it stricter.
    Dr. Atkinson, do you have any ideas or any recommendations 
on how would you go about setting up information if a Chinese 
company came in legitimately and they got approved to buy 
here--you know, once they are here, that technology that they 
have acquired they start exporting. The military risk or the 
national security risk, how do we block that in a friendly way 
but preserving our IP, the intellectual property, and national 
security? Any recommendations?
    Mr. Atkinson. Yes. The Chinese acquire U.S. technology 
companies for one and only one reason, and that is to take the 
technology. They don't do it for market share or anything; it 
is about getting the technology. They are behind us in 
technology. If they acquire leading-edge technology and 
incorporate it into their production, they do better.
    There are multiple challenges with CFIUS, and I laid some 
out in my report. There is a longer report we wrote recently 
that incorporated a lot of CFIUS recommendations.
    One of the challenges in CFIUS is the Chinese don't look at 
technology the way we do. We tend to look at it as it is either 
military or it is not military. And so a lot of things get 
through the cracks in CFIUS that are ``not military'' and yet, 
when you connect the dots and you put the capabilities 
together, it ends up enabling their military capability. We 
don't look at it that way because it is not pure military.
    So I think CFIUS needs much, much stronger abilities to 
just simply deny Chinese technology acquisition, particularly 
ones that are backed by the Chinese Government.
    A case in point that CFIUS approved was a company called 
Lexmark, one of the global printer companies. The Chinese 
Government went to a Chinese printer company, who, by the way, 
was under several cases for violating the Lexmark and HP, 
Hewlett-Packard, patents on printer cartridges--they went to 
them and gave them $2.6 billion and told them to buy up Lexmark 
and become the dominant global printer company. In our view, 
this shouldn't have been approved because it wasn't a market-
based capitalist transaction; it was a government strategy to 
take that technology.
    Mr. Yoho. I am going to give you free range to send 
recommendations to this committee through our committee staff 
here, and I would sure love to incorporate that in the next go-
around.
    And, with that, I am going to yield to the ranking member, 
my good friend, Mr. Sherman.
    Mr. Sherman. Thank you.
    I would point out that culture can also be of strategic 
interest. The Chinese have bought, I believe, the second-
largest movie exhibiter in the United States. Richard Gere will 
never make another movie about Tibet. They control our free 
speech through their ownership, and they control our free 
speech in China through all the devices that you have 
identified.
    Now, before the hearing, I talked--and two of the three 
witnesses said that they would have a solution, something that 
would eliminate or at least cut in half the trade deficit with 
China.
    Maybe I heard you wrong. Mr. Cheng is off the hook because 
he didn't make the promise. Do either of the two doctors here 
have a plan that would cut our trade deficits very 
substantially?
    Mr. Atkinson. Yeah. ITIF issued a report in late January, 
early February that was targeted to whoever the new President 
was going to be, President Clinton or President Trump----
    Mr. Sherman. What is in that plan that would cut the trade 
deficit in half?
    Mr. Atkinson. I wish I could give you a simple answer. Let 
me say two things. The first part of that is: Going through the 
WTO, doing these kind of legalistic procedure things isn't 
going to work. Much of what the Chinese are doing gets through 
the cracks of WTO----
    Mr. Sherman. I have got such just limited time. Do you have 
a plan that you think will cut the trade deficit in half within 
a few years?
    Mr. Atkinson. We have to work with our allies to inflict 
real pain on China if they don't change and make them----
    Mr. Sherman. How about just a 20-percent tariff on 
everything to start as opening stakes?
    But I will go to Dr. Scott.
    What do you got?
    Mr. Scott. I think that is moving in the right direction, 
but I think you need a broader plan. I think the first element 
of the plan has to be realigning exchange rates. The Chinese 
currency remains substantially undervalued. There have been 
calculations that show that in order to----
    Mr. Sherman. If it is undervalued, why is it that China has 
to intervene in the markets to cause its currency not to go 
down?
    Mr. Scott. Well, the United States has essentially given 
China carte blanche to open up its capital markets. In fact, we 
have been pressuring them to open their capital markets.
    What this has done is, since the Chinese savers have 
nowhere else to put their money, they are pouring it in the 
United States. We also have the Chinese Government pouring 
their money into the United States to buy up Chinese companies.
    All of it bids up the demand for the U.S. dollar, which has 
risen 25 percent in real terms in the last 3 years. That makes 
our goods much, much less competitive. Calculations have shown 
that in order to rebalance global trade, the Chinese RMB needs 
to rise perhaps as much as 35 or 40 percent.
    But I think we also have to look at other countries that 
have large surpluses, like China and the European Union. They 
also have large global surpluses. This is not just a China 
problem. I think if we focus on that, there may be less a 
problem----
    Mr. Sherman. Have the Chinese ever acknowledged that 
balanced trade over a period of time, not in any one year, is 
an appropriate goal? Or do they look at these trade deficits 
and say, that is healthy, that is the way they should continue? 
Or do they just avoid mentioning that they do have a trade 
surplus with the United States?
    Dr. Scott or anyone else?
    Mr. Scott. I think the Chinese claim that they are playing 
the game the way it should be played and that they are not 
engaging in unfair trade practices----
    Mr. Sherman. And, therefore, the resulting trade deficits 
are incredibly healthy because they result from a system that 
doesn't have all the things that you and I know that it has.
    Mr. Scott. Exactly.
    Mr. Sherman. Okay. So if we impose to start off with a 15-
percent tariff on all their imports to the United States, with 
a proviso that if they were to retaliate then we would go to 30 
percent, what would be their reaction?
    Mr. Scott. Well, we saw an example of that in 1985 with the 
Plaza Accord. Congressmen Gephardt and Rostenkowski put forth a 
bill in this House, which was passed twice, which would impose 
a tariff of 27\1/2\ percent on imports from Japan and Europe. 
The bill passed the House twice, never got through the Senate, 
was never signed by the President.
    But it caused such concern to the finance ministers of 
those countries that they came to us, they came to James Baker 
and said, we have to find a solution, and that is why we 
negotiated the Plaza Accord. So we never----
    Mr. Sherman. I understand.
    I believe my time has expired. Thank you.
    Mr. Scott. I apologize.
    Mr. Yoho. Thank you.
    We will go to Mr. Dana Rohrabacher from California.
    Mr. Rohrabacher. Thank you, Mr. Chairman, and thank you, 
Mr. Ranking Member. I appreciate it. I have another thing that 
I have to run off to, so I appreciate the courtesy.
    Let me just state right off the bat that, Dean Cheng--is it 
mister? It is not doctor, but it is--right. Okay. Let me just 
say that I have a fundamental difference in analysis than you 
do. You seem to be giving credit to the Chinese Government and 
the Chinese people who are now under that government for many 
of the advances that I do not believe they deserve credit for.
    Let me just note that, again, I have been here 30 years 
now, as I have seen this come and go. But I remember full well 
in the 1990s when, during the Clinton administration, you had 
some of his biggest political backers who were channeling money 
from the aerospace industries in China to the Clinton campaign, 
and they were then transferring vitally important technologies 
to the Chinese.
    There is a fellow shaking his head back there. I 
investigated this for 6 months on my own. And while I found, 
for example--and the reason I was tipped off is I went to a 
meeting of aerospace workers who told me they had been in China 
solving China's rocket problem. They didn't even have stage 
separation, the engineers. Well, who sent them over there? I 
will tell you. Hughes Aircraft sent them over there. And then 
the Chinese, without any money for research and development, 
ended up being able to send things into the air MIRV'd, meaning 
carrying more than one warhead or one payload.
    No, I think that when you take a look at the advances that 
have been made in China, it has been made because you have 
people who have no R&D cost at the fundamental level. What we 
have is Chinese graduate students in our major universities, 
and they are saying, oh, well, you can't bring the records back 
with you, or you have to make sure they are in the security 
drawers. No, no, they remember.
    Just putting them through these courses have given billions 
of dollars, billions and billions of dollars of technological 
know-how that the American people and our companies have had to 
pay for, now transferred to what is not a benevolent government 
that evolved into benevolence by becoming so prosperous, as we 
were told would happen, but, no, a government today that is the 
world's worst human rights abuser, in the sense that they are 
the biggest human rights abuser on the planet, and a country 
that has, as we say, claims against neighboring countries, 
territorial claims, that are very damaging to the peace of the 
world.
    I would suggest that what we are talking about here--I am 
going to ask one question, because--okay. I believe the 
incredible enrichment and increasing power that we have 
provided since Bill Clinton's day as President of the United 
States, since those days, has resulted in the fact that America 
and free countries of the world and even the Chinese people 
themselves, who are in less a secure situation for their own 
potential freedom, that we are worse off, way worse off, 
because of this.
    Now, what I want to ask you--and I will be very quick. Are 
there groups of Americans, like the ones who were giving money 
to the Bill Clinton campaign, who have profited from this 
transfer of technology and continue--that they are not breaking 
the law, however; people who, without breaking the law, are now 
engaged in bolstering the strength and power of this rotten 
dictatorship in China, this crony capitalism that threatens 
their part of the world. Are there Americans that you can 
identify for us that are--not by name but by category--that 
have profited from this horrendous outcome?
    We will start with Mr. Scott--well, no, no, no. Mr. Cheng, 
go ahead.
    Mr. Cheng. Well, sir, I mean, given that we are talking 
about trade relations, presumably there are people who benefit, 
I guess starting with the lobbyists who work on behalf of the 
PRC Government. Certainly, they are going to benefit from being 
paid by the Chinese Government.
    Mr. Rohrabacher. How about levels of management in our 
corporations, that they benefit, and then we don't have--and 
that the people at the lower level of corporate structure in 
America is just damaged dramatically. Is that possible?
    Mr. Cheng. It is certainly possible, Representative. I am 
afraid I don't----
    Mr. Rohrabacher. Okay. Maybe Mr. Atkinson and then Mr. 
Scott.
    Mr. Atkinson. Yeah. I guess I would agree with Mr. Cheng. 
There is trade with China. I think the way to think about this, 
that I would urge you to think about, would be: The Chinese 
Government forces U.S. companies to do things, and if a CEO is 
unwilling to do it, they are going to pay a price. And, in my 
view, it is a little bit like the bully in the school and you 
need a bodyguard. I think the problem is the U.S. Government 
has refused or been unwilling to be the bodyguard and to stop 
the pressure, stop that kind of extortion.
    Mr. Rohrabacher. Well, could it be that the people in the 
management of our companies have short-term personal profit 
interest at heart, even though it has long-term horrible 
implications for their working people in the United States?
    Mr. Scott, go right ahead.
    Mr. Scott. I think I can answer that. My answer goes to 
that question. I think the people who benefit most from 
corporate takeovers--for example, Lenovo's purchase of IBM and 
the Chinese purchaser of the NextGear auto parts manufacturer, 
those directly benefit stockholders, they benefit the managers 
of those companies who get large bonuses for the sale of those 
companies, but my research has shown that millions of jobs have 
been eliminated through the purchase of these companies that 
buy them up and they hollow them out and then they ship parts 
here under those companies. That is the way it works.
    Mr. Rohrabacher. This is a lot deeper issue than that, but 
thank you very much.
    Sorry to take an extra minute.
    Mr. Yoho. Thank you, sir.
    We will next go to Mr. Scott Perry from Pennsylvania.
    Mr. Perry. Thank you, Mr. Chairman.
    Mr. Cheng, long time, no see.
    I don't know if the American people are aware of this, and 
I just want to have a conversation with you about the Chinese 
space program. It would be my assertion that they followed us 
into space but they are ahead of us in a couple different ways 
that Americans aren't aware of, and I think it has manifested 
in a couple different ways, which is a more aggressive use of 
space as a warfighting domain, a state-of-the-art technological 
breakthrough domain, and through groundbreaking civil space 
initiatives that have serious military implications. I don't 
know if you will agree with those, but I am hoping, if you 
don't, that you will explain that.
    I just want to ask you about a couple of things regarding 
their strategy, not the least of which is their quantum 
communications satellite. I don't know the science of these 
electrons that react to one another, whether they are on the 
other side of the galaxy or not, but, as I understand it, it is 
unhackable and unjammable. We are not in that domain at all, as 
far as I understand it.
    And then, when I understand that they are mapping the other 
side of the moon, they plan on going to the poles, I think they 
have satellites in orbit around the moon, I think that they are 
ostensibly for civil purposes, but I want to know if you can 
discuss the military implications.
    If you can verify what I said are the three, kind of, 
domains that they are operating in that we are behind them in.
    Mr. Cheng. Well, sir, to begin with, you left one out, 
which is manned space. At this point, the United States cannot 
put its own astronaut into space. We rely on the Russians. The 
Chinese do not rely on the Russians; they are able to send 
their own people up into space. That is a very sorry state for 
our manned space program to be in.
    In terms of warfighting, the Chinese military has 
reorganized itself to include now an information warfare 
service that specifically includes the space component. So it 
is very clear based on their doctrinal writings that they 
expect the next conflict to be about information, and space is 
a key means of acquiring and transmitting information.
    This is also where quantum computing comes in, because 
information needs to be secure. It needs to be secure 
physically, in terms of the servers and routers. It also needs 
to be secure in terms of being able to be hacked and tampered 
with. Quantum computing--which I must admit, I also am not a 
physicist, and I don't pretend to even play one on TV--
nonetheless, does seem to have a set of capabilities. The 
Chinese want a quantum computing capability in orbit, which 
says something about their ability to miniaturize it, their 
ability to shield it from cosmic rays and other aspects.
    The Chinese are making a conscious push in terms of the 
array of capabilities that they have developed to be able to 
engage in military operations in space, everything from direct-
ascent kinetic-kill vehicles, which you fire from Earth, which 
can reach all the way out to geosynchronous orbit, to lasers, 
which have been fired at American satellites, to cyber and 
jamming capabilities.
    And, finally, it is important to note that China's space 
program is essentially run through the People's Liberation 
Army. Every major space facility is manned by the People's 
Liberation Army, including through this new service. The idea 
that we could cooperate with China's space program, which I 
know has been an issue raised before this and other committees 
here on the Hill, means, at the end of the day, getting in bed 
with the People's Liberation Army.
    We have talked here about American security and is there a 
threat from Chinese acquisition of companies. I would suggest 
that openly getting in bed with the Chinese military is a more 
direct threat to our security.
    Mr. Perry. So if you were going to make a recommendation 
based on what you know or believe the Chinese to be pursuing, 
which seems to me, at least based on the last paragraph of your 
statement, regarding their military involvement, what should 
America be doing right now?
    Mr. Cheng. We do still have one of the foremost aerospace 
industries out there, but we seem to be lacking in direction. 
Much along the same lines as we have talked about here about 
defending our own high-tech crown jewels, are we intent upon 
being able to win any competition, including armed 
competition----
    Mr. Perry. Is this the business of NASA or DOD or both?
    Mr. Cheng. We need to coordinate both of them. NASA is a 
civilian agency. It is dedicated much more toward science, but 
it should recognize that it plays a role in terms of diplomacy. 
NASA has the best brand of any part of the U.S. Government, and 
yet it doesn't play that role.
    Mr. Perry. Thanks, Mr. Chairman.
    Mr. Yoho. Thank you for those questions.
    We will next go to Mrs. Ann Wagner from Missouri.
    Mrs. Wagner. Thank you, Mr. Chairman. And I thank you for 
holding this hearing and shining a light on China's 
technological advancements across sectors--frankly, a challenge 
that poses a threat to the rules of global trade.
    I hardly agree with Dr. Atkinson that to defend free trade 
and American jobs we should not advocate U.S. protectionism but 
actively respond to Chinese protectionism. There is no question 
that China's theft of American intellectual property, their 
state control of major industries, and WTO accession have cost 
the American people.
    So I am going to jump right into it. The last 
administration created a pathway to sanction foreign companies 
that steal American intellectual property through cyber 
activities in Executive Order 13694, but it appears that only 
Russian actors were ever sanctioned.
    Dr. Atkinson, or others, do you recommend that the Trump 
administration sanction Chinese companies that repeatedly steal 
American IP?
    Mr. Atkinson. I do. I think the only way that this is ever 
going to turn around is for the Chinese Government to realize 
that there will be actions in reaction to what they are doing. 
And those actions have to impose some level of pain, if you 
will.
    Mrs. Wagner. You said real pain, yes?
    Mr. Atkinson. Real pain, and not just pretend like we are 
going to do it at the next G20 meeting.
    Mrs. Wagner. Right.
    Mr. Atkinson. So we have to identify those pain points, if 
you will, and where we can apply them. But we have to do it in 
a way that is respectful. We have to do it in a way that is 
strategic and focused on real goals and things that we want to 
see the Chinese accomplish within a particular period of time.
    Mrs. Wagner. Dr. Scott, you have put together a compelling 
statement on jobs. China's market interference and 
anticompetitive subsidies hurt the U.S. economy. While I am not 
convinced that currency manipulation and the trade deficit are 
the key drivers of U.S. job loss, I am curious to hear your 
thoughts on the U.S.-China Bilateral Investment Treaty and 
where you think it should go under the Trump administration.
    Mr. Scott. Thank you very much, Congresswoman.
    I am very concerned about the Bilateral Investment Treaty. 
As I have documented in my testimony and elsewhere, my research 
has indicated that bilateral investment tends to lead to a loss 
of jobs, particularly with a country like with China, both in 
terms of when Chinese firms come here to take over U.S. firms, 
as we have been discussing, but also when U.S. firms go to 
China and outsource their production to that country.
    So I think that a passage or adoption of a bilateral 
investment treaty is not in our national interest at this 
point, especially with a country like China that is such an 
egregious violator of the norms of fair trade behavior.
    Thank you.
    Mrs. Wagner. Absolutely.
    Dr. Atkinson, last year, Congress created a private right 
of action for victims of trade secret theft in U.S. courts. And 
1 year later, have companies doing business in China begun 
taking advantage, do you know, of this cause of action?
    Mr. Atkinson. I would have to consult with my colleague 
Stephen Ezell, who follows that issue for us more carefully. My 
sense is they have not, and I think one of the principle 
reasons for that is retaliation.
    American companies are incredibly hesitant to raise any 
complaints because they know from real experience there will be 
retaliation and pain and consequences within that, which is why 
I think, again, it has to be the U.S. Government that leads 
this. The Chinese know how to divide and conquer among our 
firms and within particular industries, picking one firm off 
against another. The U.S. Government has to have essentially a 
policy that we will defend U.S. economic interests regardless.
    Mrs. Wagner. What about the Department of Justice? Should 
they be directing additional resources toward prosecuting trade 
secret theft, perhaps?
    Mr. Atkinson. One of the big problems that we have is that, 
if you look, for example, within the FBI at the commercial 
counterintelligence arm that we have, it is vastly underfunded. 
The folks who are doing that are very, very talented and 
hardworking agents, both in terms of counterintelligence and 
going after this. But that is an afterthought at the FBI right 
now. There are bigger fish that the FBI is focusing on, and 
they have really let that slide.
    There is a very good book, by the way, that two FBI 
counterintelligence agents wrote--and I will send that link to 
you--wonderful book about how the Chinese are going after our 
secrets and how limited their ability is to go after them just 
because of the resources.
    Mrs. Wagner. I wish I had more time, but it appears that I 
have run out, Mr. Chairman, so I shall yield back.
    Mr. Yoho. Thank you, ma'am.
    If you guys are up to it, if you guys want to ask an 
additional question or two, it would be okay--are you guys okay 
with that?
    Go ahead, Ann.
    Mrs. Wagner. Mr. Atkinson, are there additional efforts you 
would recommend to the new administration--I am sorry, Dr. 
Atkinson. Forgive me--to the new administration to safeguard 
U.S. intellectual property? How can we better safeguard from 
our Chinese cyber attacks?
    Mr. Atkinson. Well, a couple things.
    I mean, one is, clearly, we need better defensive measures. 
One of the challenges has been the U.S. Government itself has 
weakened our own commercial cybersecurity by not giving out 
information on zero-day exploits, for example, because they 
want to then use those weaknesses for their own purposes. We 
can have a good discussion about that, but it is clear that one 
of the results of that is to weaken our cybersecurity and allow 
the Chinese to be inside our systems. So that is a very 
important debate to have.
    A second area would be, again, I think we have to go back 
to results-oriented trade, if you will. Reagan did that in the 
eighties with Japan; it was results-oriented. We need to pick 
four or five key things--cyber theft and cyber attacks should 
be on the top of that list--and say, we need to see a reduction 
of that within X amount of months or else there will be 
consequences.
    Mrs. Wagner. Mr. Cheng, would you care to comment, please?
    Mr. Cheng. Two other key points.
    One is it is essential to recognize a Chinese cyber 
activity is not random. We are playing Whac-A-Mole. Oh, my 
gosh--or kiddie soccer. Oh, my gosh, something happens over 
here, and everybody rushes over there, and it is the OPM hack, 
or it is UnitedHealth, or it is some company.
    To recognize that there is a Chinese strategy behind their 
cyber activities means that we can stop addressing individual 
items, which are important but, at the end of the day, are 
tactical. If we can counter the Chinese strategy, whether 
through better investment in counterintelligence, perhaps by 
also improving the level of overall computing security in this 
country, then, in that case, that would go a far distance.
    Representative Perry asked about quantum computing. One of 
the great problems we have is this idea that, ``Well, but 
quantum computing will make the NSA's job almost impossible.'' 
And there is a great deal of truth to that. But the answer is 
not to, therefore, stand in front of quantum computing and 
scream, ``Don't go there.'' It may be that, at the end of the 
day, we are all better off, American companies and the American 
Government, if we simply embrace quantum computing and think 
about other ways to then counter that issue rather than denying 
our own companies and government the benefits from that.
    Mrs. Wagner. Very good testimony. I appreciate that.
    Let me shift gears here, and I will just toss this out to 
whomever thinks that they are most schooled on this. The saga 
over rare earth minerals and Mountain Pass mine in California 
has been right out of a movie script. The Wall Street Journal 
reported this week that coal-mining magnate Tom Clarke may 
purchase the mine.
    To anyone who knows best, do you think that Mountain Pass 
could play a role in rebuilding a U.S. supply chain for rare 
earth minerals?
    Yes, Mr. Cheng.
    Mr. Cheng. Rare earths, one, aren't rare. They happen to be 
heavily localized in China, but India, Canada, the United 
States, and Australia all produce rare earths. Part of the 
issue is that rare earths are, however, incredibly 
environmentally damaging in terms of the refining process to 
get at it.
    So the interesting problem here is not can a domestic 
source be found. It is how important is it that we have a 
domestic source relative to EPA standards, EPA requirements. If 
we want to be dependent on the largest supplier, which is 
China----
    Mrs. Wagner. Right.
    Mr. Cheng [continuing]. That is one thing. If we want not 
to be totally dependent upon it, then we also need to recognize 
that there may need to be regulatory relief with regards to 
environmental----
    Mrs. Wagner. Well, you may have answered my followup 
question, which is: What can the U.S. do to compete with 
China's dominance in the rare earths production?
    Dr. Atkinson?
    Mr. Atkinson. So there are a couple things, I think.
    Certainly, the Chinese have used their monopoly on rare 
earth production to force U.S. companies to localize 
production. If you want to get that, we are not going to export 
that material to you, you have to come here to get it. Again, 
that violates the WTO. We should have brought a case against 
that.
    Mrs. Wagner. Right.
    Mr. Atkinson. In terms of domestic production, I agree with 
Mr. Cheng. We just have to decide that is a national priority. 
And, unfortunately, we haven't done that. We have chosen to 
believe that the Chinese will give us those materials.
    Then the third thing we have to do, because we have seen 
this from experience, is when a company tries to then get in 
the market, the Chinese then dump to bring down prices so that 
they can't get in the market. We have to be ready to go with a 
dumping case and dumping and pressure so that they can't use 
that to keep new entrants from getting into the marketplace.
    Mrs. Wagner. Thank you for your testimony.
    Yes, Dr. Scott.
    Mr. Scott. Just one final point. As an economist----
    Mrs. Wagner. Could you hit your mike, please?
    Mr. Scott. Yes. Speaking as an economist, these are clearly 
industries that are huge externalities because it is such a 
polluting industry. There may have to be public subsidies for 
the cost, and we may also have to regulate the industry, not 
export the product, and, as Dr. Atkinson says, respond when we 
are challenged by actions in China if they dump the product.
    Mrs. Wagner. Great. Thank you.
    I think this is very good testimony, Mr. Chairman, and 
testimony that certainly can be taken on board by this 
administration. So I thank you very much, and I appreciate the 
indulgence, sir.
    Mr. Yoho. Yes, ma'am.
    And I was going to follow up with that question. Mr. Perry, 
do you have another question?
    Mr. Perry. I do. Thank you for your indulgence, Mr. 
Chairman.
    Mr. Cheng, thinking about the Chinese, their incursions on 
the Moon, so to speak, satellite, you know, around-the-Moon 
mapping and communications on the back side of the Moon, what 
is the purpose of being on the other side of the Moon and 
mapping the other side of the Moon and endeavoring, I think, to 
go to the other side of the Moon in the next couple years? What 
would be the civilian purposes, and what are the military 
implications?
    Mr. Cheng. Well, the civilian purposes is probably to make 
contact with the Transformers base over there.
    That was intended as humor.
    No, almost certainly one of the most important aspects is 
prestige, to demonstrate, again, that China can be innovative, 
that China can do things that no other country has done.
    From a security perspective, however, it is the 
communications link with the far side of the Moon. Because of 
the way the Moon orbits around the Earth, the far side of the 
Moon never faces Earth. So communicating with the far side 
requires one of two options, either creating a lunar satellite, 
a satellite that orbits the Moon itself--no one has done that 
yet--or putting a satellite at certain key points in deep space 
that will allow you to communicate, which is what China has 
already announced it is going to do.
    It will deploy a communications satellite to Lagrange point 
2. No other country has done that. Countries have put 
scientific exploration satellites there, but no one has put a 
communications or application satellite there. Once there, 
China will have opened the door to deploy other satellites 
there.
    That is beyond the geosynchronous belt. It will complicate 
our ability to do space situational awareness. It will allow 
the Chinese to create essentially an on-orbit reserve of 
communication satellites, so, in the event of conflict, it will 
have, essentially, already in place additional systems to take 
up the slack.
    It could, in theory, bring those satellites back in, 
whether to populate geosynchronous to replace casualties in 
time of war or, alternatively, even as a potential form of 
anti-satellite capability. Because, of course, the satellites 
in geosynchronous are very predictable, so you could, in fact, 
come in from outside orbit and come in, whereas right now we 
are focused on going out to geosynchronous.
    Mr. Perry. Do we have any plans whatsoever that are similar 
to the Chinese in this regard to station, to map, to 
communicate on the back side? Do we have any of these plans 
whatsoever?
    Mr. Cheng. Not to the best of my knowledge. The closest is 
the deployment of the James Webb Space Telescope, which will 
also go to Lagrange point 2. But that, of course, is a 
dedicated scientific satellite which intends to base a 
supplement to Hubble. So, no, there is nothing like this, as 
far as in the public record, for either DOD or NASA.
    Mr. Perry. In my mind, in the way that you present it as 
well, it seems like they have, if they complete this task, an 
extraordinary military capability from a communications 
standpoint and from, if you think about a GPS satellite and how 
much the military depends--nobody reads a map in the military 
anymore, right? It is all GPS-based. Not saying it will always 
be, but right now that is the primary means of location.
    I mean, it presents, I think, a significant hazard. The 
door is wide open for them, if they chose to, to take military 
action on our communications and location array that is in 
geosynchronous orbit without any--there is almost nothing we 
can do.
    Mr. Cheng. Yes, sir. The Chinese, they publish an enormous 
amount of material, and they are very open in saying, the next 
war, one of the things we will try to do--we, the PLA--is 
establish space dominance. This is clearly a step in that 
direction.
    Mr. Perry. Is it something that we should be concerned 
about? I don't know when the next national military strategy or 
national security strategy comes out. Do we not care? Do we not 
take them seriously? Do we not see this as a problem? Or is 
this out of the realm of your expertise?
    Mr. Cheng. There is no evidence that we have taken this on 
board in the most recent national military strategy, national 
security space strategy, or national space strategy, sir.
    Mr. Perry. Okay. Thanks, Mr. Cheng.
    Thank you, Mr. Chairman.
    Mr. Yoho. Again, I appreciate you all, your patience 
staying here.
    I want to just touch base. There is no separation, from 
what I have studied--and I think you have alluded to this--
between the Chinese Government, the Chinese military, and/or 
Chinese businesses. They are kind of one entity.
    The idea of national pride, going to the Moon, if China 
wants to do that, we can understand that in this country 
because we did that. We can remember how this Nation rallied 
behind that. I truly believe that was for national pride. It 
was a leap of faith and a giant step for mankind that the whole 
world benefited from.
    But what I am seeing here with the Chinese program, I am 
not seeing that. It is like I talked about before; if you look 
at a past activity, we can predict future actions. I wanted to 
touch on the rare earth comments that Mrs. Wagner talked about. 
As of late 2016, China produced more than 85 percent of the 
global rare earth mineral supply, which is used in the 
production of everything from smartphones to advanced weapons. 
I have heard reports that there are almost 2 tons of rare earth 
metals in some of our fighter jets.
    China's control of the market, however, enabled them in 
2010 to restrict rare earth exports by 40 percent and cut off 
supplies to Japan over territorial disputes. We remember that, 
the Japanese Coast Guard ramming the Chinese ship. China just 
backed up, says, ``Not a problem,'' and cut off their rare 
earth, crippling their market.
    So we have seen the story over and over again. And then 
their leader--and I remember this because I saw a documentary 
on it. It was from 1992. It was the Chinese leader, Deng 
Xiaoping. He said that the Middle East has oil, America and 
Japan are in technology. We can't compete with them, but we can 
compete with them on rare earth metals, and we are going to 
corner the market. And they have done that.
    I think we are at a point in this country--and this is 
something we have talked about on this committee--to develop a 
rare earth national security policy for the United States. I 
know they are difficult to mine and there are EPA things that 
we have to look at as far as regulations and make sure it is 
done right. But we would be foolish if the American Government 
didn't come together and say, we are going to procure and 
secure the rare earth metals needed from us instead of having 
to depend on any other country, I don't care who it is.
    One of the things I saw when I first came up here is we 
were arguing the farm bill, and one of the sentiments of some 
of the people up here was, why do we need a farm bill? Why 
don't we import our food? I am thinking, good God, we tried 
that on oil. Do we really want to go down here again? So to be 
dependent on another country for rare earth metals when we need 
them in everything, I think, is foolish, and I think we need to 
have that policy.
    The other thing is, as General Perry brought out about the 
intentions of China in space, I think that is very telling, 
again, by their past history. All we have to do in current days 
is see what they are doing in the South China Sea. They are 
going to do what is best for China.
    And then we know the IP Commission estimates that possibly 
up to $600 billion of intellectual property has been stolen--
$600 billion. And, again, it points to future activity.
    So I guess a question I want to ask you, are there existing 
nation-to-nation or U.N. treaty and/or agreements that are 
satisfactory to prevent China's aggressive pursuit of space in 
something other than civilian purposes for exploration versus 
military? Are there sufficient treaties or agreements between 
nations, or is there something that needs to be written up on 
that?
    Go ahead, Mr. Cheng.
    Mr. Cheng. There is only a handful of international 
treaties governing space.
    Mr. Yoho. Right.
    Mr. Cheng. China and the United States and quite a few 
other countries are party to almost all of them. The U.S. is 
not a party to the Moon Treaty, but that is actually not 
specifically relevant here.
    The U.S. has resisted most efforts at creating a space arms 
control treaty because of the very real--two very large real 
problems. One, it is almost impossible to define what a space 
weapon is. The Chinese version of a treaty that they have 
forwarded actually would allow all of the anti-satellite 
activities that they have conducted and would ban any American 
militarization of space. Yes, it is a lovely treaty----
    Mr. Yoho. A great plan.
    Mr. Cheng. Exactly. And it goes directly to the other 
piece, sir, which is that the Chinese are excellent 
practitioners of legal warfare. You sign a bad treaty; it is 
not just like a bad contract, although we have seen examples of 
bad contracts here today. What happens is China will 
basically--and there will be an American community, both from 
the legal, academic----
    Mr. Yoho. Right.
    Mr. Cheng [continuing]. And arms control communities, who 
will basically say, if we signed it away, it doesn't matter 
that China has it and we don't.
    Mr. Yoho. I agree with you.
    Anybody else? Any comments?
    All right. Gentlemen, I appreciate your time. And what you 
see is a rare earth policy and a policy to secure our 
semiconductor industry are paramount. I think we need to rally 
this Nation. Through leadership is the only way that we are 
going to go back and do the things we used to do, of exploring 
space and going on to that next frontier. It would be a poor 
choice for us not to pursue that, and it is something we need 
to do. That comes from the top down and for America to put a 
focus out there.
    I want to thank you for you time, for your commitment to 
come here, for your patience while we voted.
    And, with that, this meeting is adjourned, and we look 
forward to having your statements submitted.
    [Whereupon, at 4:34 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

              

                                 <all>
</pre></body></html>
